No. 20-371
IN THE

CARE ALTERNATIVES,
Petitioner,
v.
UNITED STATES OF AMERICA; STATE OF NEW JERSEY
EX REL. VICTORIA DRUDING; BARBARA BAIN;
LINDA COLEMAN; RONNI O’BRIEN,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
BRIEF IN OPPOSITION
Ross Begelman
Counsel of Record
Marc M. Orlow
BEGELMAN & ORLOW, P.C.
1411 Route 70 East, Suite 245
Cherry Hill, NJ 08034
(856) 428-6020
ross.begelman@begelmanorlow.com
Counsel for Respondents Druding, Bain,
Coleman, and O’Brien

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
BRIEF IN OPPOSITION............................................. 1
STATEMENT OF THE CASE..................................... 1
REASONS TO DENY THE WRIT .............................. 9
I. This Court’s Review Is Not Warranted to
Resolve a Circuit Split .................................... 10
A. Certiorari Is Not Warranted to Address a
Conflict with the Eleventh Circuit’s
AseraCare Decision....................................... 11
B. There Is No “Disarray” Regarding Falsity
Generally ...................................................... 22
II. This Case Is a Bad Vehicle.............................. 26
III. The Decision Below Is Correct ...................... 30
CONCLUSION .......................................................... 36

ii
TABLE OF AUTHORITIES
Cases
Omnicare, Inc. v. Laborers Dist. Council
Constr. Indus. Pension Fund,
575 U.S. 175 (2015) ................................................ 34
Solari Hospice Care,
2013 WL 8744176 (Dep’t of Health & Human
Servs. June 17, 2013) ............................................. 29
United States v. AseraCare, Inc.,
938 F.3d 1278 (11th Cir. 2019) ...................... passim
United States v. Neifert-White Co.,
390 U.S. 228 (1968) ................................................ 32
United States v. Paulus,
894 F.3d 267 (6th Cir. 2018) ........................ 7, 24, 25
United States v. UCB, Inc.,
970 F.3d 835 (7th Cir. 2020) .................................. 21
United States ex rel. Polukoff v. St. Mark’s
Hosp.,
895 F.3d 730 (10th Cir. 2018) .................... 22, 23, 25
United States ex rel. Riley v. St. Luke’s
Episcopal Hosp.,
355 F.3d 370 (5th Cir. 2004) ...................... 23, 24, 25
United States ex rel. Walker v. R&F Props. of
Lake Cnty., Inc.,
433 F.3d 1349 (11th Cir. 2005) .............................. 15
Universal Health Servs., Inc. v. United States
ex rel. Escobar,
136 S. Ct. 1989 (2016) ...................................... 29, 32
Winter ex rel. United States v. Gardens Reg’l
Hosp. & Med. Ctr., Inc.,
953 F.3d 1108 (9th Cir. 2020) .......................... 25, 26

iii
Statutes
15 U.S.C. § 77k(a) ...................................................... 34
31 U.S.C. § 3729(a)(1)(A) ........................... 4, 30, 31, 35
31 U.S.C. § 3729(a)(1)(B) ........................... 4, 30, 31, 34
31 U.S.C. § 3729(b)(1)(A) ............................................. 4
31 U.S.C. § 3729(b)(1)(B) ............................................. 4
31 U.S.C. § 3730(c)(2)(A) ........................................... 21
Regulations
42 C.F.R. § 418.20(b) ................................................... 1
42 C.F.R. § 418.22(a)(1) ............................................... 1
42 C.F.R. § 418.22(a)(4) ................................... 2, 20, 26
42 C.F.R. § 418.22(b) ................................................. 30
42 C.F.R. § 418.22(b)(1) ......................................... 1, 20
42 C.F.R. § 418.22(b)(2) ..................................... passim
42 C.F.R. § 418.22(b)(3) ................................... 2, 20, 26
64 Fed. Reg. 54,031 (Oct. 5, 1999) ............................... 2
70 Fed. Reg. 70,532 (Nov. 22, 2005) ............................ 2
74 Fed. Reg. 39,384 (Aug. 6, 2009) .............................. 2
75 Fed. Reg. 70,372 (Nov. 17, 2010) ............................ 2
78 Fed. Reg. 48,234 (Aug. 7, 2013) ............................ 20
79 Fed. Reg. 50,452 (Aug. 22, 2014) ........................ 1, 2
Other Authorities
Dep’t of Health & Human Servs., Office of
Inspector Gen., Enhanced Controls Needed to
Assure Validity of Medicare Hospice
Enrollments (Nov. 1997), https://oig.hhs.gov/
oas/reports/region5/59600023.pdf............................ 3

iv
False, Merriam-Webster, https://www.merriamwebster.com/dictionary/false (last visited
Jan. 7, 2021) ........................................................... 31
Nat’l Hospice & Palliative Care Org., Facts and
Figures (2020), https://www.nhpco.org/wpcontent/uploads/NHPCO-Facts-Figures2020-edition.pdf...................................................... 18
S. Rep. No. 99-345 (1986) ...................................... 4, 32
Andrew H. Smith, Combating Health Care
Fraud and Abuse in Medicare: Legislative
Action and New Programs, AARP Pub.
Policy Inst. (Apr. 1, 1998),
https://www.aarp.org/health/medicareinsurance/info-1998/aresearch-import-192FS66.html ................................................................. 3
U.S. Dep’t of Justice, Caris Agrees To Pay $8.5
Million Court Settle False Claims Act
Lawsuit Alleging That It Billed for Ineligible
Hospice Patients (June 25, 2018),
https://www.justice.gov/usao-edtn/pr/carisagrees-pay-85-million-court-settle-falseclaims-act-lawsuit-alleging-it-billed ...................... 19
U.S. Dep’t of Justice, Chemed Corp. and Vitas
Hospice Services Agree to Pay $75 Million to
Resolve False Claims Act Allegations
Relating to Billing for Ineligible Patients and
Inflated Levels of Care (Oct. 30, 2017),
https://www.justice.gov/usao-cdca/pr/chemedcorp-and-vitas-hospice-services-agree-pay-75million-resolve-false-claims-act ................................ 19

v
U.S. Dep’t of Justice, Organizer of $9 Million
Scam Sentenced to 8 Years in Federal Prison
in Scheme to Provide Hospice to Patients
Who Were Not Terminally Ill (June 20,
2016), https://www.justice.gov/usao-cdca/pr/
organizer-9-million-scam-sentenced-8-yearsfederal-prison-scheme-provide-hospice ................. 19
U.S. Dep’t of Justice, Owner of Texas Chain of
Hospice Companies Sentenced for $150
Million Health Care Fraud and Money
Laundering Scheme (Dec. 16, 2020),
https://www.justice.gov/opa/pr/owner-texaschain-hospice-companies-sentenced-150million-health-care-fraud-and-money ..................... 3

BRIEF IN OPPOSITION
Respondents Victoria Druding, Barbara Bain,
Linda Coleman, and Ronni O’Brien hereby submit this
brief opposing the petition for a writ of certiorari.
STATEMENT OF THE CASE
This case is about false claims on the Medicare
Hospice Benefit, which occurred in 2006 and 2007. The
Government only pays for hospice care if the providers
follow Medicare’s rules for reimbursement. At the
relevant time, these included several procedural
conditions, two of which are important here.
First, a physician must certify that the patient is
terminally ill, i.e., has a life expectancy of less than six
months. 42 C.F.R. §§ 418.20(b), 418.22(b)(1). This
certification happens at the beginning of the care
period, and relates to the first 90 days of hospice care.
After that, to continue receiving payments from the
Government, a physician must periodically recertify
the patient’s continuing eligibility for hospice care. Id.
§ 418.22(a)(1).
Second, these certifications must be accompanied
by “[c]linical information and other documentation
that support the medical prognosis,” which must be
filed in the patient’s medical records. 42 C.F.R.
§ 418.22(b)(2). This important requirement is the
principal check on patients improperly being certified
for hospice. For this reason, the inclusion of clinical
information supporting a life expectancy of six months
or less is a condition of payment for hospice care,
separate from and independent of a signed physician
certification. See 79 Fed. Reg. 50,452, 50,470 (Aug. 22,
2014) (“A hospice is required to make certain that the
physician’s clinical judgment can be supported by

2
clinical information and other documentation that
provide a basis for the certification of 6 months or less
if the illness runs its normal course.”); 74 Fed. Reg.
39,384, 39,398 (Aug. 6, 2009) (“The medical record
must include documentation that supports the
terminal prognosis.”); 70 Fed. Reg. 70,532, 70,534-35
(Nov. 22, 2005) (“A signed certification, absent a
medically sound basis that supports the clinical
judgment, is not sufficient for application of the
hospice benefit under Medicare.”); 64 Fed. Reg. 54,031,
54,038 (Oct. 5, 1999) (“A patient’s medical record
[must] contain complete documentation to support the
certification made by the hospice physician or
attending physician.”).
After the events underlying this case occurred,
additional requirements were added, including that
physicians must include narratives supporting the
prognosis, and that for recertifications beyond 180
days, a physician or nurse practitioner must have a
face-to-face visit with the patient to gather clinical
information to support the prognosis. See 42 C.F.R.
§ 418.22(a)(4), (b)(3); see also 75 Fed. Reg. 70,372,
70,463 (Nov. 17, 2010) (adding face-to-face
requirement); 74 Fed. Reg. at 39,413 (adding narrative
requirement).
Robust eligibility requirements for hospice are
important for two reasons. First, electing hospice and
palliative care means forgoing curative care.
Permitting reimbursement for patients who are not
terminally ill threatens to deprive those patients of
care that is more appropriate for their conditions—and
perhaps even life-saving. See 79 Fed. Reg. at 50,45556. A terminal diagnosis is also often traumatic for the
patient and the patient’s loved ones.

3
Second, this area of health care historically has
been rife with fraud. In the 1990s, the Department of
Health and Human Services, in collaboration with the
Health Care Financing Administration and the
Administration on Aging, launched an initiative called
“Operation Restore Trust.” The project audited 12
large hospices in four States, reviewing medical
records for 2,109 beneficiaries that had been in hospice
care for over 210 days, and “concluded that 1,373 of
the selected beneficiaries were ineligible for hospice
because, at the time of initial diagnosis, they were not
terminally ill as defined by Medicare regulations.”
Dep’t of Health & Human Servs., Office of Inspector
Gen., Enhanced Controls Needed to Assure Validity of
Medicare Hospice Enrollments i (Nov. 1997),
https://oig.hhs.gov/oas/reports/region5/59600023.pdf.
In its first two years, focusing on just a handful of
hospices in a small number of States, Operation
Restore Trust identified more than $188 million in
improper payments. See Andrew H. Smith, Combating
Health Care Fraud and Abuse in Medicare: Legislative
Action and New Programs, AARP Pub. Policy Inst.
(Apr. 1, 1998), https://www.aarp.org/health/medicareinsurance/info-1998/aresearch-import-192-FS66.html.
Such fraud is not consigned to the past. Just last
month, a hospice owner was sentenced for
perpetrating a $150 million fraud scheme based on
false hospice eligibility determinations. U.S. Dep’t of
Justice, Owner of Texas Chain of Hospice Companies
Sentenced for $150 Million Health Care Fraud and
Money Laundering Scheme (Dec. 16, 2020),
https://www.justice.gov/opa/pr/owner-texas-chainhospice-companies-sentenced-150-million-healthcare-fraud-and-money. The regulations have become

4
more stringent over time to prevent and deter such
fraud.
The hospice eligibility requirements can be
enforced directly by the Centers for Medicare and
Medicaid Services (CMS). They can also be enforced
through the False Claims Act (FCA), which creates
liability for anybody who “knowingly presents, or
causes to be presented, a false or fraudulent claim for
payment or approval,” or “knowingly makes, uses, or
causes to be made or used, a false record or statement
material to a false or fraudulent claim.” 31 U.S.C.
§ 3729(a)(1)(A), (B).
The FCA’s scienter requirement of acting
“knowingly” can be satisfied with actual knowledge,
deliberate ignorance, or recklessness. See 31 U.S.C.
§ 3729(b)(1)(A). Specific intent to defraud is not
required. Id. § 3729(b)(1)(B). The knowledge standard
ensures that the FCA does not “punish honest
mistakes or incorrect claims submitted through mere
negligence,” while ensuring “that those doing business
with the Government have an obligation to make a
limited inquiry to ensure the claims they submit are
accurate.” S. Rep. No. 99-345, at 7 (1986).
Respondents are former employees of petitioner
Care Alternatives, a hospice provider in New Jersey.
App.3. Respondents allege that in 2006 and 2007,
petitioner knowingly presented false claims for
hospice reimbursement to the Government by seeking
reimbursement for care for patients who were not
eligible under the governing regulations. App.7.
This case is at summary judgment. In support of
their allegations, respondents have presented
evidence of both falsity and knowledge. Respondents’

5
expert witness, Dr. Robert Jayes—a graduate of
Harvard Medical School and faculty member at the
George Washington University School of Medicine,
who is Board Certified in Geriatrics as well as Hospice
and Palliative Medicine, who has worked in the
hospice industry—reviewed the medical records of 47
of petitioner’s patients. See Respondents’ CA3 Br. 11.
This comprised 28 patients identified in the complaint,
and 19 additional patients who had been on hospice for
one year or more in 2006 to 2007. See id. Those 47
patients were on hospice for a total of 587 certification
periods (i.e., the initial two 90-day periods, and
additional 60-day periods). See id.
Dr. Jayes concluded, based on the medical records
accompanying the certifications, that for 206 out of the
587 hospice certification periods, the records did not
support a prognosis of terminal illness. See
Respondents’ CA3 Br. 11; see also App.7. Dr. Jayes was
asked repeatedly whether any reasonable physician
could have disagreed with his assessment, and he said
no. See Respondents’ CA3 Br. 35-36 (citing examples).
The Third Circuit recognized as much, noting that in
Dr. Jayes’ view, “for those periods, any reasonable
physician would have reached the conclusion he
reached.” App.7.
Dr. Jayes’ report and testimony did not stand
alone. Respondents also presented evidence that
petitioner’s medical directors (who can recertify
patients for continuing hospice care) did not attend
required meetings preceding recertification, and then
signed hospice certifications in bulk. Respondents
presented evidence that medical directors were
inattentive and did not review required documents.
Respondents presented evidence of a company-wide

6
campaign to “bring in bodies,” as well as instructions
to employees to alter medical records to include
previously missing information after those records had
purportedly been relied upon to support hospice
eligibility, as well as a practice of only including
information in patient charts that supported hospice
eligibility, while omitting information that would
undermine eligibility. Indeed, petitioner conducted
audits showing that patient medical records
frequently failed to include information that
supported hospice eligibility under Medicare’s rules.
This evidence was all summarized on pages 12-13 and
36-52 of respondents’ opening brief in the court of
appeals.
The district court held that the evidence did not
create a genuine issue of material fact about whether
petitioner’s claims to Medicare were false or
fraudulent. App.65. The court held that to be
actionable, a claim for hospice eligibility must be
“objectively false,” meaning that the physician’s
clinical judgment “must be predicated on the presence
of an objectively verifiable fact at odds with the
exercise of that judgment.” App.59 (quotation marks
omitted).
Applying that standard, the district court found
the evidence, other than Dr. Jayes’ report,
unpersuasive, App.62-64—and it concluded that Dr.
Jayes’ report did not create an issue of material fact
because it reflected only a difference of opinion about
whether particular patients were hospice eligible,
App.64-65. Because the court found “no factual
evidence that [petitioner’s] certifying doctor was
making a knowingly false determination,” App.64, it
granted summary judgment to petitioner, App.65. The

7
court did not reach any element of FCA liability other
than falsity.
A panel of the Third Circuit (Hardiman,
Greenaway, and Bibas, JJ.) unanimously reversed.
App.1-2. The court of appeals framed the issue this
way:
The central question on appeal is whether a
hospice-care provider’s claim for reimbursement can be considered “false” under
the FCA on the basis of medical-expert
testimony that opines that accompanying
patient certifications did not support patients’
prognoses of terminal illness. The answer is a
straightforward yes.
App.9.
The Third Circuit specifically rejected two aspects
of the district court’s analysis. First, it disagreed with
the district court’s premise that opinions cannot be
false. App.11. The court explained that under the
common law of fraud and this Court’s precedents, “an
opinion can be considered ‘false’ for purposes of
liability.” Id. Because the FCA does not define the
phrase “false or fraudulent,” these background rules
apply here. Indeed, the Third Circuit noted that
clinical judgments have been deemed fraudulent even
in criminal cases. See App.16-17 (citing United States
v. Paulus, 894 F.3d 267 (6th Cir. 2018)).
Second, the Third Circuit disagreed that the
element of falsity requires “objective falsity,” as the
district court used that term—for two reasons. First,
the “objective falsity” standard improperly conflates
falsity and scienter, relying on evidence of what the
defendant knew to establish whether the defendant’s

8
opinion was false. App.11-12. Second, the “objective
falsity” standard is at odds with precedents
recognizing “legal falsity” under the FCA, i.e., cases in
which a claim is false because it falsely represents
compliance with material conditions of payment.
App.14.
In this regard, the Third Circuit focused on the
legal requirement that a certification for hospice
eligibility must be accompanied by “[c]linical
information and other documentation that support the
medical prognosis.” App.15 (citation omitted). The
court explained that “disagreement between experts
as to a patient’s prognosis may be evidence” that
petitioner failed adequately to document the patient’s
prognosis; “its relevance need not be limited to
evidence of the accuracy of another physician’s
judgment.” Id.
The Third Circuit acknowledged that its
understanding of falsity was inconsistent with the
Eleventh Circuit’s decision in United States v.
AseraCare, Inc., 938 F.3d 1278 (11th Cir. 2019), which
required a showing of objective falsity in the hospice
context. The Third Circuit cautioned, however, that
objectivity was still “relevant for FCA liability” under
its analysis; the difference is that in the Third Circuit,
“objectivity speaks to the element of scienter, not
falsity.” App.21.
To sum up, the Third Circuit held that “FCA
falsity simply asks whether the claim submitted to the
government as reimbursable was in fact reimbursable,
based on the conditions for payment set by the
government.” App.14. But that, alone, is not enough to
create liability. Instead, the plaintiff must also prove

9
the other elements of FCA liability, including scienter,
before liability will attach. See App.21-22.
Based on this reasoning, the Third Circuit vacated
the district court’s decision granting summary
judgment and remanded for proceedings consistent
with its opinion. Its decision was “limited” to “the
falsity element.” App.22. The court of appeals did not
reach respondents’ “other arguments regarding
whether the evidence they submitted met the District
Court’s erroneous ‘objective’ falsity test,” nor “opine as
to [respondents’] odds of surviving summary judgment
on the other prima facie elements, which the District
Court did not reach.” App.22-23. Instead, the Third
Circuit “remand[ed] for consideration of the other
elements of FCA liability.” App.23.
Rehearing en banc was denied, App.24-25, and the
petition followed.
REASONS TO DENY THE WRIT
The question presented by the petition is
“[w]hether a physician’s honestly held clinical
judgment regarding hospice certification can be ‘false’
under the False Claims Act based solely on a
reasonable difference of opinion among physicians.”
Pet. i. As explained in greater detail below, that isn’t
really the question the Third Circuit decided, and it
isn’t the question at the heart of this case. But even if
it were, the question would not warrant this Court’s
review. Put simply, the question does not matter
because the FCA’s scienter requirement shields
reasonable, honestly held clinical judgments from
FCA liability, even if such judgments are “false” under
the FCA because the Government would not pay the
claim. That is true in the Third Circuit, and

10
everywhere else, too. A closer examination of the
contentions in the petition only reinforces the case
against certiorari.
I.

This Court’s Review Is Not Warranted to
Resolve a Circuit Split.

The petition argues that the Third and Eleventh
Circuits disagree about the meaning of falsity in FCA
hospice cases, and then it asserts that there is
“disarray” among the circuits about the meaning of
falsity generally. Pet. 15-22. This is wrong. In reality,
there is broad consensus among the circuits that when
a defendant submits a claim for reimbursement that
is not in fact reimbursable, the claim is false. For
liability to attach, the claim must also be presented
with scienter.
In the hospice context, the Third and Eleventh
Circuits have a minor difference in approach—but the
standard for liability in both courts is effectively the
same. Both courts hold that claims for reimbursement
for hospice care can be false, including when a
certification of terminal illness is wrong. And both
require a showing of knowledge before a false
certification of terminal illness will lead to liability.
The principal difference is that the Third Circuit
separates these elements into falsity and scienter, and
the Eleventh Circuit mashes them together under the
rubric of “objective falsity.”
That difference in formulation should never
matter because both courts consider the same types of
evidence to answer the same questions. The difference
has mattered in two anomalous cases—this one and
the Eleventh Circuit’s AseraCare case—because the
district courts in these cases chose only to address the

11
element of falsity, putting off consideration of all the
other elements. Had the district courts considered
FCA liability as a whole, they functionally would have
been applying the same legal rule. Consequently,
petitioner is simply wrong to suggest that the
standards for liability vary across circuits, such that
cases that survive in the Third Circuit would fail in
the Eleventh. In fact, this case would have survived
summary judgment in any circuit.
A. Certiorari Is Not Warranted to Address a
Conflict with the Eleventh Circuit’s
AseraCare Decision.
In United States v. AseraCare, Inc., 938 F.3d 1278
(11th Cir. 2019), the Eleventh Circuit considered an
unusual summary judgment appeal. There, the
Government intervened in a hospice fraud case, which
survived summary judgment. See id. at 1284. The
district court decided to bifurcate the trial into two
phases—one about falsity, and one about the
remaining
elements—a
procedure
that
was
unprecedented in the history of FCA trials. See id. at
1286. The Government was required to pick and
choose which evidence would relate to falsity, and
which would relate to scienter, and to present that
evidence at different times—which the Government
noted was unworkable because some evidence related
to both. See id. Nevertheless, the district court worried
that evidence of the defendant’s scienter—including
evidence that the defendant’s policies promoted
cursory review of patient records to facilitate improper
enrollments to hospice—would be “unduly prejudicial”
on the question of falsity, id. at 1287, and therefore
sought to prevent the Government from introducing it
as proof of falsity in the first phase of the trial. See id.

12
Proceeding in this anomalous fashion, the court
held a trial on the element of falsity, where the
Government relied heavily on the testimony of its
expert, Dr. Liao, who testified that “the medical
records of the patients at issue did not support
AseraCare’s ‘terminal illness’ certifications because
they did not reveal a life expectancy of six months or
less.” AseraCare, 938 F.3d at 1287. But, according to
the court of appeals, “Dr. Liao never testified that, in
his opinion, no reasonable doctor could have concluded
that the identified patients were terminally ill at the
time of certification. Instead, he only testified that, in
his opinion, the patients were not terminally ill.” Id.
The Eleventh Circuit also noted that Dr. Liao changed
his own view about whether certain patients were
terminally ill over time. See id. at 1287-88. The
Government also presented testimony from the
relators and evidence about AseraCare’s policies—but
only for “context,” and not as proof of falsity. Id. at
1288.
Notwithstanding
the
obstacles
in
the
Government’s path, it won the first trial when the jury
found that for 104 of the 123 patients at issue,
AseraCare had submitted false claims. 938 F.3d at
1289. But on a post-trial motion, the district court
determined that it had given the jury improper
instructions, threw out the verdict, and granted
summary judgment to AseraCare. See id. at 1290.
The Government appealed, and the Eleventh
Circuit reversed. The court of appeals considered two
questions, explaining that its “primary task on appeal
[was] to clarify the scope of the hospice eligibility
requirements, which are set out in the federal
Medicare statute, 42 U.S.C. § 1395f, and its

13
implementing regulation, 42 C.F.R. § 418.22.”
AseraCare, 938 F.3d at 1291. Its “secondary task [was]
to determine whether the district court’s formulation
of the falsity standard was consistent with the law and
properly applied.” Id.
On the first question, the Eleventh Circuit
determined that “the clinical judgment of the patient’s
attending physician (or the provider’s medical
director, as the case may be) lies at the center of the
eligibility inquiry.” 938 F.3d at 1293. The court held
that the documentation requirement set forth in 42
C.F.R. § 418.22(b)(2) did not require the medical
records actually to prove the prognosis, nor
unequivocally demonstrate that the patient was likely
to die within six months. 938 F.3d at 1293-94. Instead,
it held that the eligibility criteria were satisfied if the
physician’s judgment “represents a reasonable
interpretation of the relevant medical records.” Id. at
1294.
Regarding the second question, the Eleventh
Circuit held that a “claim cannot be ‘false’—and thus
cannot trigger FCA liability—if the underlying clinical
judgment does not reflect an objective falsehood.”
AseraCare, 938 F.3d at 1296-97. The court elaborated
that “[o]bjective falsehood can be shown in a variety of
ways.” Id. at 1297. These include where “a certifying
physician fails to review a patient’s medical records or
otherwise familiarize himself with the patient’s
condition before asserting that the patient is
terminal,” as well as “where a plaintiff proves that a
physician did not, in fact, subjectively believe that his
patient was terminally ill at the time of certification.”
Id. Moreover, the test is met “when expert evidence
proves that no reasonable physician could have

14
concluded that a patient was terminally ill given the
relevant medical records.” Id. On the other hand, “the
mere difference of reasonable opinion between
physicians, without more, as to the prognosis for a
patient seeking hospice benefits does not constitute an
objective falsehood.” Id. at 1301 (footnote omitted).
Nevertheless, the Eleventh Circuit reversed the
grant of summary judgment to the defendant. The
court recognized that the unprecedented bifurcated
trial structure had prevented the Government from
presenting evidence showing AseraCare’s knowledge
of falsity, which spoke to the “objective falsity”
standard. Accordingly, the court held that “it is only
fair that the Government be allowed to have summary
judgment considered based on all the evidence
presented at both the summary judgment and trial
stages.” 938 F.3d at 1304. It remanded for that
consideration, and the case settled on remand before
any further decision was rendered.
Against that backdrop, any conflict between the
Third Circuit and Eleventh Circuit’s statements about
the meaning of falsity does not warrant this Court’s
review—and especially does not warrant it in this
case.
Even taking the petition’s claimed split at face
value, the most that can be said is that there is a 1-1
split about the quantum of evidence required to
survive summary judgment in FCA cases about
hospice eligibility, arising out of two interlocutory
decisions, each of which only considered one of the
elements of an FCA action. Such a shallow split on
such a niche question does not warrant this Court’s
immediate review. For the reasons that follow, the
split is even less compelling than that.

15
First, the standard for falsity in the Third and
Eleventh Circuits is not different in any important
way. Both courts agree, for example, that “Medicare
claims may be false if they claim reimbursement for
services or costs that either are not reimbursable or
were not rendered as claimed.” App.14 (quoting United
States ex rel. Walker v. R&F Props. of Lake Cnty., Inc.,
433 F.3d 1349, 1356 (11th Cir. 2005)). Under that
standard, the claims in this case are false because they
were not reimbursable. Both courts also agree that
opinions can be false. Compare App.11 (explaining
that opinions can be false when they are not sincerely
held or when they have no basis), with AseraCare, 938
F.3d at 1302 (explaining that opinions can be false if
they are not sincerely held, if they are not based on
actual exercises of medical judgment, if the physician
knows facts that undermine the opinion, or if no
reasonable physician could have reached the same
opinion).
Second, even if the Third and Eleventh Circuits’
standards for falsity differ in hospice cases, the
standard for FCA liability in both circuits is
essentially the same. In the Eleventh Circuit, a
terminal illness prognosis is actionable when it is
“objectively false.” That happens when the prognosis
is not subjectively believed by the person offering it;
when the person offering the prognosis has not
actually reviewed the relevant medical records; or
when no reasonable physician could have found the
patient terminally ill. See AseraCare, 938 F.3d at
1297. These situations correspond to the FCA’s
scienter definition—which the Third Circuit uses “to
limit the possibility that hospice providers would be
exposed to liability under the FCA any time the

16
Government could find an expert who disagreed with
the certifying physician’s medical prognosis.” App.12.
A prognosis that the physician does not subjectively
believe is made with actual knowledge of its falsity. A
prognosis made without reviewing the underlying
materials, or that no reasonable physician could give,
is either reckless or made with deliberate indifference
to its truth or falsity. Thus, the conditions that trigger
liability in the Eleventh Circuit also trigger liability in
the Third Circuit, and vice versa. That is why the
Third Circuit noted that “objectivity” was still
“relevant for FCA liability,” and explained that
AseraCare supported this aspect of its decision.
App.21.
Third, the petition elides that the disagreement
between the Third and Eleventh Circuits is not really
about the question presented, but is instead about the
meaning and significance of the documentation
requirement in 42 C.F.R. § 418.22(b)(2)—which
provides that “[c]linical information and other
documentation that support the medical prognosis”
must accompany hospice eligibility certifications—and
whether and when a violation of that requirement
renders a claim for payment false.
The Third Circuit held that this requirement is
violated if the documentation does not actually
confirm the prognosis, consistent with the
Government’s view. See App.6. The Third Circuit held
that this is an independent requirement of
reimbursement, that violation of this requirement
renders a claim for reimbursement legally false, and
that a plaintiff’s expert’s opinion that the information
in the medical record does not support the prognosis

17
therefore gives rise to a factual question about falsity.
See App.14-15.
The Eleventh Circuit held that the regulation
merely requires the physician or provider to include
documentation,
but
does
not
require
the
documentation actually to prove the prognosis. See
AseraCare, 938 F.3d at 1293-94. Thus, the Eleventh
Circuit focused on a difference of opinion between the
plaintiff’s expert witness and the certifying physician,
as opposed to the adequacy of the documentation. See
id. at 1295-96.
This matters because it shows that the split
between the Third and Eleventh Circuits is not as
clean as the petition suggests, and has essentially no
relevance outside the narrow hospice context. It also
creates a vehicle problem because, to decide the
question presented, the Court would first have to
decide an even narrower, even less certworthy
question about how the requirements for hospice
reimbursement worked in 2007. See Part II, infra.
Finally, any question about the legal rule is purely
academic in this case because the summary judgment
record includes evidence that would satisfy the
Eleventh Circuit’s standard for objective falsity. As
the Third Circuit noted, Dr. Jayes testified that no
reasonable physician could have disagreed with his
assessment of the periods he found ineligible. App.7;
cf. AseraCare, 938 F.3d at 1297 (“A claim may also
reflect an objective falsehood when expert evidence
proves that no reasonable physician could have
concluded that a patient was terminally ill given the
relevant medical records.”). As explained above, there
was other evidence, too—including that medical
directors skipped meetings and signed certifications in

18
bulk, and that the company pressured people to falsify
records and chart only negative health indicators.
Thus, even if the Third Circuit had applied the
Eleventh Circuit’s objective falsity standard, it would
have reversed the grant of summary judgment. Far
from being “outcome determinative,” the purported
split has no bearing on the outcome of this case.
The dispute is not irrelevant only in this case; it
also does not matter generally because nobody is
bringing fraud cases predicated solely on a difference
of opinion between physicians. The Government did
not do so in AseraCare (which is why the Eleventh
Circuit vacated the summary judgment order in that
case), respondents did not do so here, and petitioner
has not identified a case in which the plaintiff relied
solely on a difference of opinion at summary judgment.
Nevertheless, petitioner wants the Court to
believe that if the result below stands, the floodgates
will open, and innocent hospice providers will face
unwarranted liability. That is pure speculation, and it
is baseless. Indeed, hospice fraud enforcement is
nothing new. Ever since Operation Restore Trust in
the 1990s, the Government has been pursuing
providers who seek payment for ineligible
beneficiaries. But the industry has not collapsed; on
the contrary, it is booming. For example, the National
Hospice and Palliative Care Organization (NHPCO)
reports that the number of for-profit hospice providers
grew by 24.7% from 2014 to 2018. See NHPCO, Facts
and Figures 21 (2020), https://www.nhpco.org/wpcontent/uploads/NHPCO-Facts-Figures-2020edition.pdf. In that same period, there were multiple
high-profile enforcement actions against hospices that
improperly certified ineligible patients. See, e.g., U.S.

19
Dep’t of Justice, Caris Agrees To Pay $8.5 Million
Court Settle False Claims Act Lawsuit Alleging That It
Billed for Ineligible Hospice Patients (June 25, 2018),
https://www.justice.gov/usao-edtn/pr/caris-agreespay-85-million-court-settle-false-claims-act-lawsuitalleging-it-billed; U.S. Dep’t of Justice, Chemed Corp.
and Vitas Hospice Services Agree to Pay $75 Million to
Resolve False Claims Act Allegations Relating to
Billing for Ineligible Patients and Inflated Levels of
Care (Oct. 30, 2017), https://www.justice.gov/usaocdca/pr/chemed-corp-and-vitas-hospice-services-agreepay-75-million-resolve-false-claims-act; U.S. Dep’t of
Justice, Organizer of $9 Million Scam Sentenced to 8
Years in Federal Prison in Scheme to Provide Hospice
to Patients Who Were Not Terminally Ill (June 20,
2016), https://www.justice.gov/usao-cdca/pr/organizer9-million-scam-sentenced-8-years-federal-prisonscheme-provide-hospice. These examples, which
represent just a small sampling of enforcement
activity, show that fraud enforcement has not chilled
the provision of hospice care—and there is no reason
to think the decision below will change that trend.
FCA liability is also not a major concern for
compliant hospices. Nobody wants to bring an FCA
case against a hospice that gets all or nearly all of its
certification decisions right, i.e., where the patients
certified as terminally ill actually are terminally ill.
The chances of proving liability would be slim, and the
damages would be minimal even in a successful case.
Consequently, the only hospices that face any
litigation risk are the ones that certify a significant
number of ineligible patients.
Petitioner does not attempt to quantify how often
this occurs, or how often erroneous certifications are

20
made in good faith. But a concentration of significant,
good-faith certification errors in a single hospice ought
to be rare. To be sure, predicting the end of life is not
an exact science; nobody thinks that doctors can
forecast the precise hour of a patient’s death, for
example. But the process isn’t pure guesswork, either.
The regulations require a physician to assess whether,
if a patient’s disease runs its normal course, the
patient has a life expectancy of six months or less. See
42 C.F.R. § 418.22(b)(1). That judgment is informed by
decades or centuries of experience with the normal
course of various diseases. CMS and its contractors
also issue guidance and coverage determinations to
help. See, e.g., 78 Fed. Reg. 48,234, 48,247 (Aug. 7,
2013) (explaining that local coverage determinations
“are intended to be used to identify any Medicare
beneficiary whose current clinical status and
anticipated progression of disease is more likely than
not to result in a life expectancy of six months or less”).
Based on these inputs, many physicians can say with
reasonable accuracy whether a patient is expected to
survive for six months or less. Moreover, after the
events that gave rise to this case, the Government
imposed additional requirements, e.g., that physicians
must include narratives explaining how the clinical
findings support their determinations, and also that a
physician or nurse practitioner must perform a faceto-face visit before recertification, and document how
the data obtained in the visit supports recertification.
See 42 C.F.R. § 418.22(a)(4), (b)(3). If a hospice
complies with those requirements, it will make goodfaith errors in certification even less likely than they
were before.

21
If, despite those resources and requirements, a
hospice still erroneously certifies a significant number
of patients as terminally ill, even that would not be
enough to support an FCA case in the Third Circuit. If
the hospice honestly and in good faith complied with
every procedural requirement, that compliance will be
documented in the medical records, and will support a
scienter defense. If all the plaintiffs have in response
is an expert witness who disagrees with the
defendant’s certification decisions (but concedes that
they are reasonable), the plaintiffs will not survive
summary judgment on scienter. Indeed, they may not
even be able to plausibly allege scienter, because good
faith mistakes are not actionable under the FCA.
FCA defendants also have unique defenses. Most
particularly, if the defendant convinces the
Government that a case is at odds with the
Government’s interests, the Government can move to
dismiss the case—and such motions are almost always
granted. See 31 U.S.C. § 3730(c)(2)(A); see United
States v. UCB, Inc., 970 F.3d 835, 842 (7th Cir. 2020)
(granting the Government’s motion and noting that
only two, including the decision under review, had
ever been denied). The Government is obviously
mindful of the equities on both sides of hospice
certification—and so if petitioner’s predictions were
accurate, one would have expected the Government to
intercede on petitioner’s behalf. Here, it is worth
noting that the Government did not move to dismiss
this case. Instead, it filed an amicus brief in the Third
Circuit supporting respondents.
In sum, scaremongering about widespread
meritless litigation, second-guessing of good-faith
medical judgments, or chilling of beneficial behavior is

22
unwarranted. The FCA’s scienter requirement and
other features, along with practical reality, provide
ample checks against that possibility.
B. There Is No “Disarray” Regarding Falsity
Generally.
The petition argues (at 19-22) that the circuits are
in “disarray” over when opinions can be false. If
petitioner could have said the circuits were “split,” it
would have—but it cannot, and so it uses “disarray” as
a euphemism that means “not really split.” As such,
petitioner’s argument is almost self-refuting. Indeed,
the degree to which petitioner strains to puff up the
issue only highlights how shallow and unimportant
the claimed split truly is. In fact, the claimed
“disarray” is all smoke and mirrors, too, because none
of the cited cases adopt reasoning inconsistent with
the decision below.
Petitioner argues that the Tenth Circuit’s decision
in United States ex rel. Polukoff v. St. Mark’s Hospital,
895 F.3d 730 (10th Cir. 2018), exemplifies the
“disarray” because the Third Circuit cited Polukoff
approvingly, while the Eleventh Circuit distinguished
it in AseraCare. Pet. 20. The fact that the Eleventh
Circuit distinguished Polukoff, however, belies any
conflict between Polukoff and AseraCare.
Indeed, Polukoff is very distinguishable. The case
was not about hospice eligibility at all, nor was it about
when expert disagreement creates factual disputes
regarding falsity. Instead, the case was at the pleading
stage, and concerned whether a complaint plausibly
alleged that heart surgeries were not “reasonable and
necessary” under the Medicare statute. See Polukoff,
895 F.3d at 734-35. The district court reasoned that

23
because the physician who performed the surgery
believed they were appropriate, claims for
reimbursement could not be false. See id. at 741. The
Tenth Circuit rejected that argument, holding that
Medicare’s “reasonable and necessary” requirement is
not a free-floating call for a clinical judgment, but is
instead a term of art that invokes specific criteria
established by the Government—including whether,
for example, a consensus of medical professionals
believes that a particular service is appropriate to
treat a particular condition. See id. at 742-43. Polukoff
accordingly has nothing to do with the issues in this
case, except insofar as it stands for the uncontroversial
proposition that a defendant cannot always evade
liability by claiming that clinical judgments are
beyond question.
The petition next cites United States ex rel. Riley
v. St. Luke’s Episcopal Hospital, 355 F.3d 370, 376 (5th
Cir. 2004), another non-hospice case, for the
proposition that “the FCA requires a statement known
to be false, which means a lie is actionable but not an
error.” The petition argues that Riley is in play
because the district court cited approvingly to it, and
“the Third Circuit criticized that reliance as
improper.” Pet. 21 (citing App.8-9). But aside from a
single citation in the “Factual and Procedural
Background” section of its opinion, the Third Circuit
did not discuss Riley at all, much less criticize the Fifth
Circuit’s reasoning. That is unsurprising because the
Fifth Circuit found that the relator’s complaint stated
a claim, using reasoning that supports the Third
Circuit’s emphasis on scienter here. Thus, the Fifth
Circuit held that “Riley’s complaint does sufficiently
allege that statements were known to be false, rather

24
than just erroneous, because she asserts that
Defendants ordered the services knowing they were
unnecessary.” Riley, 355 F.3d at 376. And, like the
Third Circuit in this case, the Fifth Circuit was clear
that the requirement that the defendant act
“knowingly” relates to scienter, not falsity. See id. at
377 (“These allegations satisfy the FCA’s requirement
that Defendants ‘know’ that the record, statement, or
claim is false.”).
The petition next cites United States v. Paulus,
894 F.3d 267 (6th Cir. 2018), to argue that the Sixth
Circuit holds that opinions can almost never be false.
Not so fast. Paulus was a criminal case in which the
defendant was accused of misreading angiograms to
find arterial blockage (stenosis) that was not really
there, so as to justify placing stents that were not
medically necessary. See id. at 270-72. The defendant
argued that the degree of stenosis was a matter of
opinion, and the Sixth Circuit disagreed, explaining
that whether an artery is blocked is a fact, not an
opinion. See id. at 276. The court acknowledged that it
might be hard for the Government’s experts to prove
that the defendant was knowingly lying about
whether arteries were blocked. But the court
explained that “however imprecise the science might
be, the reliability and believability of expert
testimony, once that testimony has been properly
admitted, is exclusively for the jury to decide.” Id. at
277 (cleaned up). The court thus affirmed the jury’s
fraud verdict.
Along the way, the Sixth Circuit noted that
although “opinions—when given honestly—are almost
never false,” such “opinions are not, and have never
been, completely insulated from scrutiny. At the very

25
least, opinions may trigger liability for fraud when
they are not honestly held by their maker, or when the
speaker knows of facts that are fundamentally
incompatible with his opinion.” Paulus, 894 F.3d at
275. The court did not attempt to catalogue all the
ways opinions can be false, however, because the
determination before it was one of fact, not opinion.
To the extent Paulus—a criminal case outside the
FCA context—is relevant, it confirms the Third
Circuit’s holding in this case that an expert’s review of
medical records can support a factual finding that
those records do not support a diagnosis (there,
stenosis; here, terminal illness). Indeed, the Third
Circuit discussed Paulus at length for that
proposition. App.16-17.
The petition finally cites Winter ex rel. United
States v. Gardens Regional Hospital & Medical Center,
Inc., claiming (at 21) that the Ninth Circuit
acknowledged “confusion” among the circuits about
when opinions can be false. 953 F.3d 1108, 1118-19
(9th Cir. 2020), petition for cert. pending, No. 20-805
(filed Dec. 3, 2020). That is a stretch. On the relevant
pages, the Ninth Circuit did not acknowledge any
confusion. Instead, it rejected the “objective falsity”
standard, just like the court below. Then, the court
stated that “[w]e are not alone in concluding that a
false certification of medical necessity can give rise to
FCA liability,” and cited the decision below, Riley, and
Polukoff as support. Id. at 1118. The court went on to
explain that “our decision today does not conflict with
AseraCare for two reasons”: First, AseraCare did not
hold that opinions can never be false, but instead only
held that disagreement among physicians, without
more, was insufficient; second, AseraCare was limited

26
to the hospice context, where the statute and
regulations expressly called for a clinical judgment—a
requirement not present in medical necessity cases
generally. Id. at 1118-19. Far from bemoaning
“confusion,” the Ninth Circuit had no trouble
reconciling the relevant circuit precedents.
In sum, there is absolutely no tension between the
decision below and any of the cases petitioner cites.
The Eleventh Circuit’s rule for hospice cases may be
slightly different than other circuits’ rules for nonhospice cases, but there is no conflict because the
circuits all agree that opinions, including clinical
judgments, can be false, and the Eleventh Circuit’s
alternative rule is limited to the hospice context. The
claimed “disarray” is illusory, and any minor
variances in verbiage will vanish without this Court’s
intervention.
II. This Case Is a Bad Vehicle.
This case is a bad vehicle to consider the question
presented for four reasons. First, the case is old,
involving conduct that occurred in 2006 and 2007. The
hospice certification requirements have changed since
then. They now include face-to-face meetings and
individualized written narratives. See 42 C.F.R.
§ 418.22(a)(4),
(b)(3).
These
measures
were
implemented to curb excessive certifications for
hospice care. If the Court is going to take a hospice
case, it would make more sense to hear one that arises
under the modern criteria, so the Court can provide
more relevant guidance to the lower courts, CMS, and
litigants about future conduct.
Second, the case is interlocutory, and no court has
yet considered all the elements of FCA liability. As the

27
Third Circuit explained, the factors the Eleventh
Circuit considers under its “objective falsity” analysis
are still relevant to scienter. App.21. Neither the
district court nor the Third Circuit has evaluated
scienter in this case, and the Third Circuit remanded
for the district court to consider it in the first instance.
App.23. This cuts against review for two reasons.
First, it would make little sense to consider the falsity
in a vacuum—and doing so risks creating confusion
about the way the FCA’s elements all work together.
Second, this Court’s review may ultimately not be
necessary at all. If petitioner prevails on scienter
grounds (or another element), the case will be over.
But even if petitioner loses, it would be better to hear
a case in which the Court has the benefit of the lower
courts’ consideration of all the elements of liability,
and all the evidence in the record. Waiting for final
judgment is the better approach either way.
Third, although petitioner touts this case as a
useful vehicle to clarify falsity generally, it would be a
bad idea to consider falsity through the idiosyncratic
lens of hospice eligibility. The hospice regime is
unusually deferential to physicians’ clinical
judgments. Other judgments—e.g., determinations of
medical necessity—receive no such deference. If the
Court uses hospice certifications as an entrée to
falsity, the Court’s view of the legal landscape will be
skewed, and negative unintended consequences may
follow in the mine run of cases. “Disarray” becomes
more likely, not less.
Finally, as explained above, the Third Circuit’s
holding that a clinical judgment can be false without a
showing of “objective falsity” is only part of its
decision. Separately, the court held that a claim for

28
hospice certification can be false if the clinical
information in the documentation does not support the
prognosis
of
terminal
illness—because
the
documentation requirement is an independent
condition of reimbursement. App.15 (holding that the
claim for reimbursement would be false if petitioner
“failed to meet at least one of the two regulatory
requirements: (1) that a physician certified the patient
is terminally ill and (2) that the certification is in
accordance with section 418.22,” which requires
documentation).
Accordingly, even if petitioner were correct that
an expert’s disagreement with a terminal prognosis is
not enough to render that clinical judgment false, that
holding would only cover one out of the two
requirements the Third Circuit found to be violated.
The claim would still be false if the separate
documentation requirement of 42 C.F.R. § 418.22(b)(2)
was not met—and so the outcome of the case would not
change. See App.15 (“[D]isagreement between experts
as to a patient’s prognosis may be evidence of [a
violation of the documentation requirement]; its
relevance need not be limited to evidence of the
accuracy of another physician’s judgment.”). In order
to reverse, the Court must not only decide the question
presented, but also the separate question of whether
and when a violation of the documentation
requirement
renders
a
claim
for
hospice
reimbursement false—or, even more narrowly,
whether the documentation requirement was violated
in this case.
That question is plainly not certworthy, which is
why the petition does not expressly present it. It is
relevant only to the narrow context of hospice claims;

29
it relates to regulations that have since been amended;
and it treads ground that this Court only recently
considered in Universal Health Services, Inc. v. United
States ex rel. Escobar, 136 S. Ct. 1989, 1996 (2016),
where the Court held that a claim can be false based
on noncompliance with a material regulatory
requirement.
The
Third
Circuit’s
resolution
of
the
documentation question was also correct. Petitioner
argues the merits on pages 28-29 of the petition,
making two points—but neither is persuasive.
First, petitioner argues that any time a
physician’s
prognosis
is
reasonable,
the
documentation requirement is satisfied because the
documentation
“support[s]”
every
reasonable
conclusion that could be drawn from it. Pet. 28. But
the regulation does not say that a certification must be
accompanied by “clinical information and other
documentation that could support the medical
prognosis.”
It
requires
the
accompanying
documentation to actually “support the medical
prognosis.” 42 C.F.R. § 418.22(b)(2). Thus, the
question is not whether, in the certifying physician’s
clinical judgment, the documentation is adequate (a
rule that would render the requirement toothless); the
question is whether CMS would regard the
documentation as adequate. That is how hospice claim
review works in the real world. See, e.g., Solari
Hospice Care, 2013 WL 8744176, at *2-6 (Dep’t of
Health & Human Servs. June 17, 2013) (affirming
ALJ’s denial of payment for hospice care for three
patients because a prognosis of six months or less was
not supported by the medical records). Whether CMS
would pay the claim based on the supporting

30
documentation is a factual question well-suited for
expert testimony, among other proofs.
Second, petitioner stresses that CMS has
reassured physicians that they will not be held liable
for good-faith mistakes. Pet. 29. But that reassurance
is predicated on compliance with the procedure for
preparing a proper certification—which includes
providing adequate supporting documentation. As
explained above, this is an important accountability
measure, and an independent, material condition of
payment. See supra pp.1-2 (collecting authorities).
That is why the Government takes the position that
“clinical information in the patient’s medical records
supporting a life expectancy of six months or less is an
independent condition of payment for hospice care
separate and apart from a signed physician
certification.” U.S. CA3 Amicus Br. 4.
Of course, the key point for certiorari purposes is
not the merits of this side question, but instead that
petitioner’s question presented is hidden behind
another, even less certworthy question. If the Court
wants to take a case about whether clinical judgments
can be false, it should await a case that cleanly
presents that question, without taking on the baggage
of
deciding
what
42
C.F.R.
§ 418.22(b)’s
documentation provision requires.
III. The Decision Below Is Correct.
Certiorari should also be denied because the
decision below is correct. The statute provides for
liability when a defendant knowingly presents “a false
or fraudulent claim,” or knowingly makes or uses “a
false record or statement material to a false or
fraudulent claim.” 31 U.S.C. § 3729(a)(1)(A), (B). The

31
Third Circuit held that “FCA falsity simply asks
whether the claim submitted to the government as
reimbursable was in fact reimbursable, based on the
conditions for payment set by the government.”
App.14. It relied on the element of scienter to shield
good-faith judgments from liability.
In general, that is the right way to understand
false claims. If a defendant presents a claim that the
Government would not pay, that claim is false,
regardless of the reason, i.e., whether the claim is
based on an untrue statement (factual falsity), or
whether the claim is submitted in violation of a
material condition of payment (legal falsity). If the
defendant presents such a claim knowingly, the
defendant is liable under the FCA.
This rule is consistent with the statutory text. The
FCA does not define “false,” and the plain meaning of
the word is not limited to intentionally untrue
statements, deceptive conduct, or even facts. Instead,
it reaches claims “based on mistaken ideas” as well as
those that are “inconsistent with the facts.” False,
Merriam-Webster, https://www.merriam-webster.com/
dictionary/false (last visited Jan. 7, 2021). There is no
basis in the statute to limit falsity to anything less
than its full scope.
The Third Circuit’s understanding of falsity also
gives meaning to each subsection of the statute. The
FCA imposes liability for false “claims,” and
separately for “false record[s] or statement[s] material
to a false or fraudulent claim.” 31 U.S.C.
§ 3729(a)(1)(A), (B). It would make no sense to
separate these violations if a false statement was the
sine qua non of a false claim. That is the implication,
though, of the “objective falsity” rule, under which a

32
claim based on an opinion cannot be false unless the
opinion misstates a verifiable fact. The Third Circuit’s
rule, by contrast, preserves independent meaning for
each subsection of the FCA’s liability provision, as well
as scienter.
The Third Circuit’s rule also follows this Court’s
precedents, which hold that the FCA “reach[es] all
types of fraud, without qualification, that might result
in financial loss to the Government.” United States v.
Neifert-White Co., 390 U.S. 228, 232 (1968). The FCA’s
legislative history likewise explains that “[t]he False
Claims Act is intended to reach all fraudulent
attempts to cause the Government to pay out sums of
money or to deliver property or services,” and that
false claims may “take many forms, the most common
being a claim for goods or services not provided, or
provided in violation of contract terms, specification,
statute, or regulation.” S. Rep. No. 99-345, at 9 (1986).
More recently, when defendants tried to limit the
element of falsity, this Court rejected the argument.
The Court explained that “[i]nstead of adopting a
circumscribed view of what it means for a claim to be
false or fraudulent, concerns about fair notice and
open-ended liability can be effectively addressed
through strict enforcement of the Act’s materiality and
scienter requirements.” Universal Health Servs., 136
S. Ct. at 2002 (quotation marks omitted). The Third
Circuit heeded this command in this case. App.12.
Limiting falsity to “objective falsity” also risks
creating anomalous situations in which a defendant
knows that it is claiming public funds that it should
not receive, but cannot be held liable because the claim
is based on an opinion or judgment. That outcome

33
would make little sense, and the Third Circuit wisely
adopted a rule that forecloses it.
The petition’s arguments in favor of the objective
falsity rule lack merit. The petition’s core theme is
that an opinion does not become false merely because
an expert disagrees with it. But nobody thinks that
disagreement among experts makes an opinion false.
What makes the opinion false is that it was wrong,
e.g., the doctor said the patient was terminally ill, but
the patient was not terminally ill at the time. The
expert’s opinion may help a jury understand why the
opinion was false—but it does not conclusively
establish falsity. That is why a plaintiff cannot find an
expert who disagrees with a certification decision and
then immediately move for summary judgment on
liability. That would be silly because, as petitioner
points out, a party with money can often find an expert
to agree with its view. Pet. 27. For that same reason,
though, a defendant’s expert cannot give the
defendant a free pass out of liability merely by opining
that a certification was reasonable. Instead, the jury
should decide, considering evidence of falsity and also
scienter.
The petition argues that the mere fact that a
prediction turns out to be wrong does not make it false
when made. Yes it does, because “wrong” and “false”
mean the same thing in this context. If the physician
says that the patient was terminally ill, and the
patient was not terminally ill, the prediction was false
when made. The prediction might not be knowingly
false, as required to create FCA liability. But it is false.
Under the contrary rule, even a knowingly wrong
prediction could be insulated from liability—which
Congress did not intend.

34
For the contrary proposition, petitioner cites
Omnicare, Inc. v. Laborers District Council
Construction Industry Pension Fund, 575 U.S. 175
(2015), a case interpreting Section 11 of the Securities
Act of 1933, which creates liability under the
securities laws if “any part of the registration
statement, when such part became effective, contained
an untrue statement of a material fact or omitted to
state a material fact required to be stated therein or
necessary to make the statements therein not
misleading.” 15 U.S.C. § 77k(a). The Court held that
an opinion can trigger liability under Section 11 if it
contains an embedded statement of fact (e.g., that the
speaker actually holds the opinion), or if a reasonable
investor would understand an opinion, in context, to
communicate facts about how the speaker formed the
opinion. See 575 U.S. at 185, 189. Petitioner argues
that these circumstances are the only ones under
which an opinion could be false under the FCA, too.
That is wrong because the FCA does not resemble
Section 11. It does not, for example, refer to an “untrue
statement of a material fact.” Instead, it refers to a
“false or fraudulent claim,” and it includes a scienter
requirement to police the boundaries of liability.
Omnicare is helpful because it shows that even
statutes focused entirely on factual inaccuracy can be
triggered by false opinions—but the range of
misstatements and misdeeds that can trigger FCA
liability is broader than the triggers for Section 11.
Independently, the petition’s arguments miss the
point because they focus on whether the physician’s
certification is a false statement. False statements are
one basis for FCA liability. See 31 U.S.C.
§ 3729(a)(1)(B). But the statute independently creates

35
liability
for
presenting
false
claims.
Id.
§ 3729(a)(1)(A). As explained above, these are claims
that are ineligible for reimbursement—regardless of
the reason why. The petition’s arguments do not
address this rule of legal falsity, and are unpersuasive
for that reason.
Finally, even though the Third Circuit rejected
the label of “objective falsity,” its rule is rooted in
objectively verifiable reality. Under the Third Circuit’s
rule, a claim is false if the Government would not pay
it. Whether the Government would pay a particular
claim is an objectively verifiable fact—not a matter of
opinion. Thus, the Third Circuit’s rule is not based on
a battle of subjective judgments; it is based on facts
about the Government’s policies and practices.
The hospice context does not change that
conclusion. As explained above, the judgments doctors
make in hospice cases are not pure guesswork. See
supra p.20. Moreover, hospice eligibility fraud is a
serious concern; it threatens patient harm and has
cost the Government hundreds of millions of dollars.
See supra pp.3-4. Maintaining a basis for FCA liability
when defendants knowingly submit ineligible claims
is critical to protecting public health and the fisc.
Because the decision below correctly stated and
applied the law, this Court should deny review.

36
CONCLUSION
Certiorari should be denied.
Respectfully submitted,
Ross Begelman
Counsel of Record
Marc M. Orlow
BEGELMAN & ORLOW, P.C.
1411 Route 70 East, Suite 245
Cherry Hill, NJ 08034
(856) 428-6020
ross.begelman@begelmanorlow.com

January 8, 2021

